HHS/OIG, Audit -"Review of Medicaid Claims for School-Based Health Services in
New Jersey,"(A-02-03-01003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for School-Based Health Services in
New Jersey," (A-02-03-01003)
May 19, 2006
Complete
Text of Report is available in PDF format (1.54 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Federal Medicaid payments for school-based health
services claimed by school health providers in New Jersey were in compliance with Federal
and State requirements.  Of the 150 school-based claims in our statistical sample, 109
did not comply with Federal laws and regulations, State statute, or the Medicaid State plan.  Based
on our sample, we estimated that $51,262,909 in Federal Medicaid funding was unallowable.  We
also set aside certain claims containing transportation services for consideration by CMS
and the State because Federal Medicaid law and regulations require that transportation services
be documented but do not specify how the services should be documented.  Based on our
sample, set-aside claims totaled an estimated $1,046,786 in Federal Medicaid funding.
We recommended that the State: (1) refund $51,262,909 to the Federal Government, (2) work
with CMS to resolve $1,046,786 in set-aside claims, (3) provide proper and timely guidance
on Federal Medicaid criteria to its school health providers, (4) reinforce the need for school
health providers to comply with Federal and State requirements, and (5) improve its monitoring
of school health providers claims to ensure compliance with Federal and State requirements.  In
its written comments, the State asserted that it was currently unable to concur with our
recommended financial adjustment of $51,262,909 but agreed to work with CMS to resolve all
issues concerning the $1,046,786 in set-aside claims.  The State also described procedural
improvements addressing the three remaining recommendations.